             ALERT REPORT
REVIEW OF HEALTH AND SAFETY CONDITIONS
  AT THE BANNISTER FEDERAL COMPLEX
         KANSAS CITY, MISSOURI
      ASSIGNMENT NUMBER A100116
              JUNE 24, 2010
Date       :June    24, 2010
Reply to
Attn of    :Regional   Inspector General for Auditing (JA-6)

Subject    :Alert
                Report
           Review of Health and Safety Conditions at the Bannister Federal Complex
           Kansas City, Missouri
           Assignment Number A100116

To         :Jason
                O. Klumb
           Regional Administrator (6A)
           General Services Administration’s Heartland Region


           The purpose of this alert report is to inform you that the Heartland Region was not fully
           responsive to Freedom of Information Act (FOIA), 5 U.S.C. 552, requests pertaining to the
           health and environmental conditions at the Bannister Federal Complex (Complex) in
           Kansas City, Missouri. As such, we wanted to notify you about this situation so you could
           take appropriate action.

           In response to Senator Christopher Bond’s February 3, 2010, request to GSA’s Inspector
           General, our office initiated an audit of the environmental conditions at the Complex. The
           FOIA issue was identified during this audit.

           On November 12, 2009, and February 5, 2010, GSA received FOIA requests from non-
           governmental organizations for documentation related to workplace hazards and health
           issues at the Complex. The Heartland Region provided information in response to these
           requests on January 10 and 15, as well as February 9 and 26, 2010.
           As part of our review, we obtained documentation pertaining to the Complex from the
           Missouri Department of Natural Resources (MDNR). In reviewing that documentation, we
           identified information that we had not previously seen in the FOIA productions. Included
           in this information was a letter dated January 7, 2005, from the MDNR to GSA. This letter
           provided MDNR’s comments related to a draft report on an investigation of the source of
           trichloroethylene contamination at the Complex. We believe this letter to be responsive to
           the FOIA requests. While the impact of this letter is not fully known at this time, it
           nevertheless should have been produced to comply with FOIA requirements.
           We first provided the subject letter to a regional Public Buildings Service (PBS) official on
           May 6, 2010, and requested that he determine whether PBS had a copy of the letter in its
           files. He could not locate the letter. On June 9, 2010, we again asked that the issue be
           researched. On June 21, 2010, an official confirmed that the Region had the letter in its
           files but had not produced it in response to the FOIA requests. When asked why it had
not been produced in response to the FOIA requests, the official stated that the prior
electronic search of the PBS records had not identified the document.
Accordingly, we recommend that you review your compliance with these FOIA requests
and disclose the January 7, 2005, letter and all other responsive documents as required
by law.
This report is advisory in nature and is not subject to the audit resolution process. This
issue will be included in the overall audit that is being conducted in accordance with
generally accepted government auditing standards. Please do not hesitate to contact me
if you have any questions or require additional information regarding this matter.




                                            2 
